CERTIFICATE OF SERVICE

I, Thomas D. Dillard, Jr., hereby certify that 1 copy of the foregoing Waiver in SERGIO
MOMOX-CASELIS, individually and as Guardian Ad Litem for MARIA MOMOX-CASELIS
and SERGIO MOMOX-CASELIS and KRISTINE WOODS as Co-Special Administrators of the
estate of M.M; PETITIONERS v. TARA DONOHUE: LISA RUIZ-LEE; KIM KALLAS:
JEREMY LAW: SHUUAANDY ALVAREZ: LANI AITKEN: OSCAR BENAVIDES;
PATRICIA MEYERS: COUNTY OF CLARK, a political subdivision of the State of Nevada,
was electronically filed with the U.S. Supreme Court, and e-mailed to the following parties listed
below, with consent, this 24"" day of September 2021:

Marjorie Hauf, Esq.

H&P LAW

8950 W. Tropicana Ave., Ste. 1
Las Vegas, NV 89147

(702) 598-4529

Counsel for Petitioners

All parties required to be served have been served.

I further declare under penalty of perjury that the foregoing is true and correct. This
Certificate is executed on September 24, 2021.

A). Mad

homas D, Dillard, Jr., Esq.
OLSON, CANON, GORMLEY & STOBESKI
9950 West Cheyenne Avenue
Las Vegas, NV 89129
(702) 384-4012

 

Sworn to and subscribed before me by said Affiant on the date designated below.

Date: September 24, 2021

NOTARY PUBLIC

Lina SUSAN ROTH
NOTARY PUBLIC
STATE OF NEVADA
APPT. No. 06-102174-1
S NOV. 28, 2021

 

   
   
        

   

MY APPT, EX?

 
